January 18, 2013

TO:           Yvette Roubideaux, M.D., M.P.H.
              Director
              Indian Health Service


FROM:         /Gloria L. Jarmon/
              Deputy Inspector General for Audit Services


SUBJECT:      Independent Attestation Review: Indian Health Service Fiscal Year 2012
              Performance Summary Report for National Drug Control Activities and
              Accompanying Required Assertions (A-03-13-00356)


This report provides the results of our attestation review of the Indian Health Service (IHS)
Performance Summary Report for National Drug Control Activities and accompanying required
assertions for fiscal year (FY) 2012.

Each National Drug Control Program agency must submit to the Director of the Office of
National Drug Control Policy (ONDCP) an annual evaluation of the progress of the agency with
respect to drug control program goals using the performance measures established for that
agency (21 U.S.C. § 1703(b)(13)). The Federal statute authorizes ONDCP to “monitor
implementation of the National Drug Control Program, including – (A) conducting program and
performance audits and evaluations.” ONDCP may request “assistance from the Inspector
General of the relevant agency in such audits and evaluations” (section 1703(d)(7)). Section 7 of
the ONDCP Circular entitled Drug Control Accounting, dated May 1, 2007, provides the
reporting requirements to comply with section 1703(b)(13). Section 8 of the ONDCP Circular
requires that each report defined in section 7 be provided to the Office of Inspector General to
express a conclusion about the reliability of each assertion made in each Performance Summary
Report for National Drug Control Activities.

As authorized by section 1703(d)(7) of the Federal statute, and in compliance with the Circular,
ONDCP requested that we perform this review. Accordingly, we reviewed the attached IHS
report entitled “FY 2012 Performance Summary Report: National Drug Control Activities—
Indian Health Service” and accompanying required assertions, dated December 10, 2012. We
conducted our attestation review in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the standards applicable to attestation
engagements contained in Government Auditing Standards issued by the Comptroller General of
the United States. A review is substantially less in scope than an examination, the objective of
which is to express an opinion on management’s assertions contained in its report; accordingly,
we do not express such an opinion.
Page 2 – Yvette Roubideaux, M.D., M.P.H.


INDIAN HEALTH SERVICE PERFORMANCE SUMMARY REPORT

IHS’s report included assertions for five measures of National Drug Control Program activities.
The five measures were (1) regional treatment center improvement/accreditation: accreditation
rate for youth regional treatment centers in operation 18 months or more; (2) domestic violence
(intimate partner) screening: proportion of women who are screened for domestic violence at
health care facilities; (3) behavioral health: proportion of adults aged 18 and over who are
screened for depression; (4) alcohol screening (fetal alcohol syndrome prevention): alcohol-use
screening (to prevent fetal alcohol syndrome) among appropriate female patients; and (5) suicide
surveillance: increase the incidence of suicidal behavior reporting by health care (or mental
health) professionals.

In accordance with ONDCP requirements, IHS made the following assertions:

   •   IHS’s performance reporting system was sufficient;

   •   IHS’s explanations for not meeting performance targets, and plans and recommendations
       for meeting targets, were reasonable;

   •   IHS’s methodology to establish performance targets was reasonable; and

   •   performance measures exist for all significant drug control activities.

We performed review procedures on the performance summary report and accompanying
required assertions. In general, we limited our review procedures to inquiries and analytical
procedures appropriate for our attestation review.

OFFICE OF INSPECTOR GENERAL CONCLUSION

Based on our review, nothing came to our attention that caused us to believe that IHS’s
performance summary report for FY 2012 and management’s assertions accompanying its report
were not fairly stated, in all material respects, based on the ONDCP Circular.

                                            ********

Although this report is an unrestricted public document, the information it contains is intended
solely for the information and use of Congress, ONDCP, and IHS and is not intended to be, and
should not be, used by anyone other than these specified parties. If you have questions or
comments about this report, please do not hesitate to call me, or your staff may contact Kay L.
Daly, Assistant Inspector General for Audit Services, at (202) 619-1157 or through email at
Kay.Daly@oig.hhs.gov. Please refer to report number A-03-13-00356 in all correspondence.

Attachment
ATTACHMENT
                                                                                    ATTACHMENT
                                                                                    Page 1 of 12

  DEPA RTM ENT OF H EA LT H & 	H UMAN SE RVICES                                 Public Health Service


                                                                                 Indian Health Service
                                          DEC 1 0 2012 	                         Rockville MD 20852




MEMORANDUM TO: 	               Director
                               Office of National Drug Control Policy

THROUGH : 	                    Norris Cochran
                               Deputy Assistant Secretary, Budget

FROM: 	                        Yvette Roubideaux , M.D., M.P.H .
                               Director
                               Indian Health Service

SU8JECT: 	                     Assertions Concern ing Performance Summary Report


In accordance with the requirements of the Office of National Drug Control Policy ci rcular
"Drug Control Accounting," I make the following assertions regarding the attached Performance
Summary Report for National Drug Control Acti vities:

Performance Reporting System

I assert that the Ind ian Health Service (lHS) has a system to capture performance information
accurately and that this system was properly applied to generate the performance data presented
in the attached report.

Explanations for Not Meeting Performance Targets

I assert that the explanations offered in the attached report for fai ling to meet a performance
target are reasonable and that any recommendations concerning plans and schedules for meet ing
future targets or for revising or eliminating performance targets are reasonable.

Methodology to Establish Performance Targets

I assert that the methodo logy used to establish performance targets presented in the attached
rcport is reasonable given past performance and avail able resources.

Performance Measures Ex ist for All Significant Drug Control Activities 


I asscrt that adequate pcrformance measures cx ist for all significant drug control activities. 




                                                       Yvette Roubideaux , M.D. , M.P.H.
Attachment
                                                                                ATTACHMENT
                                                                                Page 2 of 12




                     FY 2012 Performance Summary Report 

              National Drug Control Activities--lndian Health Service 


Decision Unit 1: Office of Clini cal and Preventive Services. Division of Behavioral Health. II-1S

   Measure i: RTC Improvemellt/Accreditation: Accreditation Rale (Or YOlillt Regional 

              Treatmellt Centers (YRTC) ill operatioll 18 mOll,lts or more 



                                      Table 1: Meas ure No. I

    FY 2008      FY 2009     FY 2010      FY 2011     FY 1011      FV 1011       I; Y 2013
    Actual       Actual      Actual       Actual      Target       Adual         T a rget
       9 1%         91%         81%          9 1%        100010        9 1%          100%


(1) Describe the measure--(In doing so, provide an explanation of how the measure
(I) reflects the purpose of the program ; (2) contributes to the National Drug Control
Strategy; and (3) is used by management of the program. This description should include
sufficient detail to permit non-experts to understand what is being measured and why it is
relevant to the Agency's drug control activities.)

Measure No. (1) reflects an evaluation of the quality of care associated with accreditation status
by either the Joint Commission, the Commission on Accreditation of Rehabili tation Facilities
(CARF), State certification, or regional Tribal health authority certification. This measure
contributes to the National Drug Control Strategy by providing alcohol and substance abuse
services to "heal America's drug users." These programs provide alcohol and substance abuse
treatment and prevention services to rural and urban communities, with a focus on holistic and
culturally-based approaches. The ex isting performance measure of 100% accreditati on of Youth
Regional Treatment Centers (YRTC) addresses the quality of services for program management.
This measure establishes the goal of optimal program management that results in 100%
attainment and maintenance of accreditation and/or certification. The review process ensures
that quality indicators are assessed and thereby bring areas of needed improvement to program
management' s attention. The review process is on a continuous basis.

(2) Provide narrative that examines the FY 2012 actual performance results with the
FY 2012 target, as well as prior year actuals.lfthe performance target was not achieved
for FY 2012, the Agency should explain why this is the case. lfthe Agency has concluded it
is not possible to achieve the established target with available rcsources, the Agency should
include recommendations on revising or eliminating the target.

T he 100% accreditation perform ance measure was not mel in FY 201 2 as a result of ongo ing
difficulties with one YRTC program . The Navaj o YRTC, located on the Navajo Reservation in
Shiprock New Mexico, is a Triball y operated YRTC that is continuing to experi ence difficulties
with scheduling and compl eting CARF accreditati on.
                                                                                   ATTACHMENT
                                                                                   Page 3 of 12




In November 20 11 , the Shiprock YRTC participated in a conference call with their designated
CARF Resource Specialist and planned a survey site visit in August 20 12. Due to turnover in
staff with approval aut hori ty, the Shiprock YRTC was unable to receive the necessary approval s
to proceed with the site visit. In November 20 12, the YRTC resubmitted the request for approva l
to proceed with obtaini ng CARF accreditation. In addition, the YRTC has developed an action
plan with a tentative CARF site visit scheduled for March-April 20 13.

(3) The Agency should describe the performance target for FV 2013 and how the Agency
plans to meet this target. If the target in FY 2012 was not achieved, this explanation should
detail how the Agency plans to overcome prior year challenges to meet targets in FY 2012.

The FY 2013 performance target for the VRTCs wi ll remain unchan ged at 100% accreditati on/
cert ification status.

The Navaj o Nation and Shiprock YRTC are being provided ongo ing fo ll ow up and support to
address these problems. However, we believe that the challenges around accred itation represent
some of the difficulties inherent in transition ing programs from Federal to Tribal management , as
the Tribe must increase operational responsibility while at the same time navigate new and
significant external requirements. i.e., CARF. Whi le the IHS will contin ue to support them , the
Navajo Nation is the lead for operations and accreditation. We believe in the program and
believe the Navajo Nation is taking the necessary but difficult steps to fi nali ze the accreditation.
Thus, we believe the target for the measure should be maintained at 100%. Working with Tribes
to develop positive leadersh ip and program services is essential for the ongoing transition from
Federal to Tribal management of clinical programs.

(4) The Agency should describe the procedures used to ensure performance data for this
measure are accurate, complete, and unbi ased in presentation and substance. The Agency
should also descr ibe the methodology used to establish targets and aetu als, as well as the
data source(s) used to collect information.

On an annual basis, the Indi an Health Service (lHS) Office of Clinical and Preventive Services,
Division of Behavioral Health requires all YRTCs to verify their accreditation/cert ifi cation status
by forward ing a copy of thi s documentation to Agency Headquarters in Rockvi ll e. Maryland.
Using veri fied program documents, this methodology ensures that standards for continued
accreditationlcert ification are continuall y being mel and deficiencies addressed. To ensure data
fort hi s perfonnance measure are accurate, complcte, and unbiased, the IHS Division of
Behavioral Health co ll ects, evaluates, and monitors individual program files for each VRTC.
Program Directors are required to submit the appropriate documentation to support FY 20 12
data.

Program measures arc the result of evaluations by CARF, the Joint Commission, States, or
Regional Behaviorall-lealth Authorities and measured against CARF, Joint Commission, States,
or Regional Behavioral Health Authorities' standards for accreditation/certifi cati on.
                                                                                 ATTACHMENT
                                                                                 Page 4 of 12




Decision Unit 2: Office of Cl inical and Preventive Services. Division of Behavioral Health. IHS

     Measure 2: Domestic Violence (Intimate Partner) Screening: Proportion of women
                who are screened for domestic violence at health care facilities.


                                       Table t: Measure 2

    F'Y 2008     FY 2009     FY 2010      FY 2011      FY 2012      FY 2012       FY 2013
    Actual       Actual      Actua l      Actual       Target       Artual        Target
       42%          48%         53%         55 .3'1D     55.3%         61.5%         58.3%


(I) Describe the measure--In doing so, provide an explanation of how the measure
(1) reflects the purpose of the programj (2) contributes to the Natiollal Drug COlltrol
Strategyj and (3) is used by management of the program. This description should include
sufficient detail to permit non-experts to und erstand what is being measured and why it is
relevant to the Agency's drug control activities.

This measure is designed to identify and assist AllAN women who experience domestic
violence. Screening assists in the identification of women at ri sk for domestic violence so that
such women can be appropriately treated and/or referred for services aimed at terminating the
cycle of violence. Significant increases in the rate of domestic violence screens reflect hi gher
care team awareness. Research has shown that alcohol and drug use can worsen and, in some
cases, accelerate domestic violence situations. This measure contributes to the National Drug
Conlrol Slralegy by identifying alcohol and/or drug use factors in relationships in an effort to
' 'stop drug use before it starts" and "healing America's drug (and alcohol) users."

In FY 20 11 , the IHS continued our support and technical assistance to Tribes in developing
programs to address violence against women. The IHS Domeslic Violence Prevention Initiative
provides approximately $10,000,000 to implement a nationally coordinated domestic violence
prevention initi ative. The initi at ive includes direct serv ice provision for expandi ng Sexual
Assault Nurse Exami ner, Sexual Assault Forensic Exam iner, and Sexual Assault Response Team
programs, as well as more robust epidcmiological capabilities. Thc initiative directly supports
the development and impl ementation of domestic violence screening policies and procedures
creating model practices which the entire system can utili ze.

(2) I'rovide narrative that examines the FY 2012 actual performance results with the
FY 2012 target, as well as prior year actuals. If the performance target was not achieved
for FY 2012, the Agency should explain why this is the case. If the Agency has concluded it
is not possible to achieve the established target with a\'ailabIe resources, the Agency shou ld
include recommendations on revising or eliminating the target.

The FY 20 12 performance target fo r thi s measure was exceeded by 6.2% percent. It reflects the
ongoing commitm ent from the Agency and its Tribal partners to incorporate domestic vio lence
screening inlo the provision of routine women ' s health care.
                                                                                   ATTACHMENT
                                                                                   Page 5 of 12




(3) The Agency should describe the performance target for FY 2013 and how the Agency
plans to meet this target. If the target in FY 2012 was not achieved, this explanation should
detail how the Agency plans to overcome prior year challenges to meet targets in FY 2013.

The performance target for FY 2013 is 58.3% screening rate . The measure is categorized as high
priority, but low cost, wh ich means health care team providers can conduct the screening in
conjunction with any health care visit or encounter. Within the context of the Agency's current
overall health services funding, projections based on increasi ng the existing perfonnance rate
may ultimately prove ambitious, but are achievable.

(4) The Agency should describe the procedures used to ensure performance data for this
measure are accurate, complete, and unbiased in presentation and substance. The Ageney
should also describe the methodology used to establish targets and actuais, as well as the
data source(s) used to collect information.

Clinical Reporting System (CRS) Documentation

Data Co llection
The IHS relies on the Resource and Patient Management System (RPMS) to track and manage
data at facilities and clinical sites. The RPMS Clinical Reporting System (CRS) software
automates the data extraction process usi ng data from patient records in the IHS health
information system (RPMS) at the individual clinic level. CRS is updated at least annually to
reflect changes in clinical guidelines for existing measures as well as adding new measures to
reflect ncw healthcare priorities. Software versions are tested first on developmental servers on
large data bases and then are beta tested at facilities, before submission to II·IS Software Quality
Assurance, which conducts a thorough review prior to national release. The new version of the
application is released as Class I software throughout the IHS. In 2005, the Healthcare
In format ion and Management Systems Society selected the Clinical Reporting System for the
Davies Award of Excellence in public health information technol ogy.

Completeness
After local sites submit their data, IHS Area coordinators use CRS to create Area level reports,
wh ich are forwarded to the national data support team for a second review and final aggregation.
CRS software automatically creates a special file format of Area data for use in national
aggregation, which eliminates potential errors that could occur if manual data extraction were
required. These national aggregations are thoroughly revi ewed for quality and accuracy before
final submission. Specific instructions for running quarterly reports are avai lable for both local
facilities and each IHS Area.

CRS generated data reports are comprehensive representations of patient data and clinica l
performance for those fac ilities that participate and include data from 100 percent of a\l IHS
direct fac ilities. At thi s time however, not all Tribes have elected to participate in the RPMS.
Bccause Tribal participation is voluntary, results include data for only those Tribal clinics and
hospitals that utilize RPMS.
                                                                                 ATTACHMENT
                                                                                 Page 6 of 12




Rel iability
Electronic collection, using CRS, ensures that perfornlance data is comparable across all
facilities and is based on a review of 100 percent of all patient records rather than a sample.
Facility reports are submitted on a quarterl y and annual basis to the Government Performance
and Results Act (GPRA) coordinator for their Area, who is responsible for quality reviews of the
data before forwarding reports for national aggregation. Because the measure logic and
reporting criteria are hard coded in the CRS software, these checks are primarily limited to
assuring all communities assigned to a site are included in the report and to identifying measure
results that are anomalous, which may indicate data entry or technical issues at the local leve l.
Comprehensive information about CRS software and logic is at www.ihs.gov/cio/crsl.

Decision Unit 3: Office of Clinical and Preventive Services. Division of Behavioral Health. I!-I S

     Measure 3: Bellavioral Healtll: Proportion oratlllits age.f 18 alld over wllo are screelled
                (or depressioll


                                        Table J: Measure 3

    FY 2008      FY 2009     F'Y 2010     F'V 2011    FY 2012       FY 2012       F'Y 2013
    Actual       Actual      Actual       Actual      Target        Attual        Ta rget
    35%          44%         52%          56.5%       56.5%         6 1.9%        58.6%


(1) Describe the measure. In doing so, provide an explanation of how the measure
(1) reflects the purpose of the program, (2) contributes to the Natiollal Drug COlltrol
Strategy, and (3) is used by management of thc progra m. This description should include
sufficient detail to permit non-experts to understand what is being measured and why it is
relevant to the Agency's drug control activities.

Depression is often an underlying component contributing to suicide, accidents, domestic/intimate
partner violence, and alcohol and substance abuse. Early identification of depression wi ll contri bute
to the National Drug Control Strategy by "stopping drug use before it starts" and "healing
America's drug users. "

(2) )'rovide narrative that examines the FY 2012 actual performance results with the FY
2012 target, as well as prior year actua ls. If the performance target was not achieved for
FY 2012, the Agency should explain why this is the case.lfthc Agency has co ncluded it is
not possible to achieve the established target with available resources, the Agency shou ld
include recommcndations on revising or eliminating the target.

The FY 20 12 performance target for this measure was exceeded by 5.4%. Since FY 2006, the
IHS has increased the screening rate four· fold, from 15% in 2006 to 6 1.9 % in FY 2012, through
in formationa l campaigns and incorporat ing depression screening as a routine part of AllAN
hea lth care.
                                                                                   ATTACHMENT
                                                                                   Page 7 of 12




(3) The Agency should describe the performance target for FY 2013 and how the Agency
plans to meet this target. If the target in FY 2012 was not achie\'cd, this explanation should
detail how the Agency plans to overcome prior year challenges to meet targets in FY 2013.

The performance target for FY 20 13 is 58.6%. The rationale for increasing the target is based on
several factors. The measure is categorized as high priority, but low cost, which means health
care providers can conduct the screening in conjunction with any health care visit or encounter.
Within the context of the Agency's current overall health services fundin g, projections based on
increasing the existing perfonnance rate may ultimately prove ambitious, but are achievable.

(4) The Agency should describe the procedures used to ensure perform ance data for this
measure are accurate, complete, and unbiased in presentation and substance. The Agency
should also describe the methodology used to establish targets and aetuals, as well as the
data sourcc(s) used to collect information.

Clinical Reporting System (C RS) Documentation

Data Collection
The IHS relies on the RPMS to track and manage data at facilities and clinical sites. The RPMS
CRS software automates the data extraction process using data from patient records in the II-1S
health information system (RPMS) at the individual clinic level. CRS is updated at least
annually to renect changes in clinical guidelines for existing measures as well as adding new
measures to reflect new healthcare prioriti es. Software versions are tested first on developmental
servers on large data bases and then are beta tested at facilities, before submi ssion to II-IS
Software Quality Assurance, which conducts a thorough review prior to national release. The
new version of the appli cation is released as Class I so ft ware throughout the IHS. In 2005, the
Healthcare Infonnation and Management Systems Society selected the Clinical Reporting
System for the Davies Award of Exce llence in public health infonnation tech nology.

Completeness
After local sites submit their data, II-I S Area coordinators use C RS to create Area level reports,
which are forwarded to the national data support team for a second review and fina l aggregation.
CRS software automatically creates a special file fo rmat of Area data for use in nat ional
aggregation, which eli minates potential errors that could occur if manual data extraction were
required. These national aggregations are thoroughly revi ewed for quality and accuracy before
final submission. Specific instructions for running quarterl y reports are available for both local
facilities and eac h IHS Area.

CRS generated data reports are comprehensive representati ons ofpaticnt data and cl inical
perfonnance for those fac iliti es that participate and include data from 100 percent of all IHS
direct fa cilities. At thi s time however, not all Tribes have elected to participate in the RPM S.
Because Tribal participation is voluntary, results include data for only those Tribal clinics and
hospitals that utilize RPMS.
                                                                               ATTACHMENT
                                                                               Page 8 of 12




Reliability
Electronic collection, using CRS, ensures that performance data is comparable across all
facilities and is based on a review of 100% of all patient records rather than a sample. Facility
reports are submitted on a quarterly and annua l basis to the GPRA coordinator for their Area,
who is responsible for quality reviews of the data before forwardin g reports for national
aggregation. Because the measure logic and reporting criteria are hard coded in the CRS
software, these checks are primaril y limited to assuring all communities assigned to a site are
included in the report and to identifying measure results that are anomalous, which may indicate
data entry or technical issues at the local level. Comprehensive infonn ation about CRS software
and logic is at www.i hs.gov/cio/crs!.

Decision Unit 4: Office of Cli nical and Preventive Services. Division of Behavioral Health. IHS

 Measure 4: 	Alcohol Scree"ing (FAS Prevention): Alcohol-use screenillg (to prevellt fetlll
             IIlcohol sYlldrome) amollg appropriate {emale patiellts


                                       Table t : Measure 4

    FY 2008     FY 2009      FY 2010      FY 2011    FY 2011       FV 1011      FY 2013
    Actual      Actual       Actual      Actual      Target        Actual       Targct
    47%         52%          55%         57.8%       58.7%         63.8%        61.7%


(1) Describe the measure. In doing so. provide a n explanation of how the measure
(1) reflect's the purpose of the program, (2) contributes to the Natiollal Drug COlltrol
Strategy, and (3) is used by management of the program. This description should include
sufficient detail to permit non-experts to understand what is being measured and why it is
relevant to the Agency ' s drug control activities.

Alcohol consumption can cause significant birth defects, including fetal alcohol syndrome
(FAS). FAS is the leading known and preventable cause of mental retardation. Rates ofFAS are
hi gher among All AN populations than the general population. Screening for alcohol use among
women of child-bearing age has been shown to be effective in reducing alcohol misuse in
pregnancy and to reduce the incidence of FAS. Continued increases in screening rates for this
measure will have a far- reaching positive impact on overall health in AllAN communitics.
Increases beginning in the FY 2007 rates of alcohol screening can be attributed to specific
Agency initi atives emphasi zing the importance of behavioral health screenings at either clinical
or behavioral health encounters. Thi s measure contributes to the National Drug Control Strategy
by identifying alcohol usage factors in an effort to "heal America's drug (and alcohol) users."

(2) Provide narrative that examines the FY 2012 actual performance results with the
FY 2012 target, as well as prior year actuals. If the performance target was not achieved
for FY 2012, the Agency should explain why this is the case. If the Agency has concluded it
is not possible to achieve the established target with available resources, the Agency should
include recommendations on revising or eliminating the target.
                                                                                  ATTACHMENT
                                                                                  Page 9 of 12




The FY 2012 performance target for this measure was exceeded by 5. 1%. Since FY 2004, the
IHS has increased the screening rate nine-fold, from 7% in 2004 to 63.8% in 2012, through
promoting and incorporating alcohol screening as a routine part of women's health care.

(3) The Agency should describe the performance target for FY 2012 and how the Agency
plans to meet this target. If the target in FY 2012 was not achieved, this explanation should
detail how the Agency plans to overcome prior year challenges to meet targets in FY 2013.

The goal for FY 2013 is to increase the screening rate to 61.7%. The measure is categorized as
high priority, but low cost, which means health care providers can conduct the screening in
conjunction with any health care visit or encounter. Within the context of the Agency's current
overall health services funding, projections based on increasing the existing performance rate
may ultimately prove ambitious, but are achievable.

(4) The Agency should describe the procedures used to ensure performance data for this
measure are accurate, complete, and unbiased in presentation and substance. The Agency
should also describe the methodology used to establish targets and actuals, as well as the
data source(s) uscd to collect information.

Clinical Reporting System (CRS) Documentation

Data Collection
The IHS relies on the RPMS to track and manage data at facilities and clinical sites. The RPMS
CRS software automates the data extraction process using data from patient records in the IHS
health infonnation system (RPMS) at the individual clinic level. CRS is updated at least annually
to reflect changes in clinical guidelines for existing measures as well as adding new measures to
reflect new healthcare priorities. Software versions are tested first on developmental servers on
large data bases and then are beta tested at facilities, before submission to IHS Software Quality
Assurance, which conducts a thorough review prior to national release. The new version of the
application is released as Class 1 software throughout the lHS. In 2005, the Healthcare
Information and Management Systems Society selected the Clinical Reporting System for the
Davies Award of Excellence in public health information technology.

Completeness
After local sites submit their data, IHS Area coordinators use CRS to create Area level reports,
which are forwarded to the national data support team for a second review and final aggregation.
CRS software automatically creates a special file format of Area data for use in national
aggregation, which eliminates potential errors that could occur if manual data extraction were
required. These national aggregations are thoroughly reviewed for quality and accuracy before
final submission. Specific instructions for running quarterl y reports are available for both local
facilities and each IH S Area.

CRS generated data reports are comprehensive representations of patient data and clinical
performance for those facilities that participate and include data from 100 percent of all II-IS
direct facilities. At this time however, not all Tribes have elected to participate in the RPM S.
                                                                                    ATTACHMENT
                                                                                    Page 10 of 12




Because Tribal parti cipation is voluntary, results include data for on ly those Tribal clinics and
hospital s that utilize RPMS .

Reliabi lity
Electroni c collection, using CRS, ensures that performance data is comparable across all
fac iliti es and is based on a review of 100% of all patient records rather than a sample. Facility
reports are submitted on a quarterly and annual basis to the GPRA coord inator for their Area,
who is responsible for quality reviews of the data before forwardi ng reports for national
aggregation. Because the measure logic and reporting criteria are hard coded in the CRS
software, these checks arc primari ly limited to assuring all communities assigned to a site are
included in the report and to identifying measure results that are anomalous, which may indicate
data entry or technical issues at the local level. Comprehensive information about CRS software
and logic is at www.ihs.gov/cio/crs/.

Decision Unit 5: Office of Clinical and Preventive Services. Division of Behavioral Health. IHS

  Measure 5: 	Suicide Surveillallce: IIIcrease the illcidence ofsuicidal behavior reporti"g bv
              health care (or melltal health) professiollals


                                        Table 1: Measure 5
    FY 2008      FY 2009      FY 2010      FY 2011      FV 2012       FYlOl2        FY 2013




(1) Describe the measure. In doing so, provide an explanation of how the measure (I)
reflects the purpose of the program, (2) contributes to the National Drug Co ntrol Strategy,
and (3) is used by management of the program. This description should include sufficient
detail to permit non-experts to understand what is being measured a nd why it is relevant to
the Agency's dru g control activities.

The su icide survei llance measure has evo lved from developing a data collection tool for use by
behavioral health providers to integrating the suicide reporting form (SRF) into the RPMS and
making it available to all providers. A baseline usage leve l by primary care, emergency,
behavioral health, and other providers was established in 2006. The suicide surveillance (RPMS
Suicide Reporting Form) captures data related to a specific incident, such as date and location of
act, method, contributing factors, and other useful epidemiologic infomlation. Local and
national reports can be sorted by a number of difTerent variables including the number of suicide
events by sex, age, community, Tribe, and method. Increased utilization of suicide reporting
fonns throughout the Indian health system will provide more comprehensive information about
the incidence of suicidal ideat ions, attempts, and completions, provide far more timely and
accurate data to nati onal policy makers, and allow interventions to be evaluated in ways not
previous ly possible. Unfortunatel y, suicide is often the result of ongoing life management
conccrns such as depression, domestic/intimate partner violence, and alcohol and substance
abuse. Early identification of depression, interpersonal difficult ies, and suicidal ideation will
contribute to " stopping drug use before it starts" and " heali ng America' s drug users."
                                                                                 ATTACHMENT
                                                                                 Page 11 of 12




(2) Provide narrative that examines the FY 2012 aetual performance results with the FY
2012 target, as well as prior year aetuals. If the performance target was not achieved for
FY 2012, the Agency should explain why this is the case. If the Agency has concluded it is
not possible to achieve the established target with available resources, the Agency should
include recommendations on revising or eliminating the target.

This performance target was not met in FY 2012. The FY 2012 target was 1,807 forms; the FY
2012 actual results were 1,461 forms.

This is due to a number of reasons. First, it was noted during a data quality review that data
exports received at the National Data Warehouse (NDW) from the IHS Areas may be comprised
of duplicate records. These duplicates would also apply to suicide reporting forms. To address
this issue, the IHS Division of Behavioral Health directed the Indian Health Performance
Evaluation System (II-1PES) stafTto identify duplicate records and to develop a procedure to de­
duplicate all exported records received by the NDW. IHPES proposed a 4-step process by which
all records were sorted; cross-referenced and duplicate records were removed. As a result, the
annual total number of forms submitted nationally was reduced. However, de-duplicated trend
data from 2004 through 2012 suggests uniform variance and an overall upward trend.

Second, one IHS Service Area informed IHS that they objected to the collection and reporting of
suicide surveillance data. In consideration of Tribal data ownership and given the very sensitive
nature of suicide in some IHS Areas, lHPES was directed to no longer collect and report on
suicide surveillance data for thatll-lS Area.

Third, there is a lag time between suicide and suicide-related events and reporting in RPMS and
subsequent data exports. Therefore, data reported above in Table 1: Measure 5 may not include
all fomls submitted in FY 2012. For all the above reasons, there was an overall decrease in the
number of suicide reporting forms exported and thus the performance target for FY 2012 was not
met. Results for FY 2012 represent a more accurate estimate of provider reporting of suicide and
suicide-related events due to improved data quality processes and serve as the benchmark going
forward.

(3) The Agency should describe the performance target for FY 2013 and how the Agcncy
plans to meet this target.lfthe target in FY 2012 was not achieved, this explanation should
detail how the Agency plans to overcome prior year challenges to meet targets in FY 2013.

The FY 2013 target perfonnance measure is the number of suicide reporting forms exported. To
continue to increase the utili zation of the suicide reporting form, IHS will increase and improve
awareness of the form and the importance of suicide surveillance activities among providers,
facility and Area managers, and administrators. Similarly, RPMS Site Managers and Electronic
Health Record Clinical Application Coordinators will be made aware of the SRF and the
appropriate application set-up and exporting processes.
                                                                                   ATTACHMENT
                                                                                   Page 12 of 12




(4) The Agency should describe the procedures used to ensure performance data for this
measure are accurate, complete, and unbiased in presentation and substance. The Agency
should also describe the methodology used to establish targets and actuals, as well as the
data source(s) used to collect information.

The suicide surveillance measure logic utilizes SRF data entered by providers at the point of
care. Once entered into the database, the SRF information is then electronically exported from
the documenting site to the national suicide database in Albuquerque, New Mexico. Processes
are in place to accurately document receipt of the electron ic fiJe(s), notify the sending site that
the file(s) have been received by providing electronic file name(s) and record counts. Once
received, the national suicide database is automaticall y updated with the new infonnation. Sites
must initiate the electronic export process for data to be included in the performance
measurement report. The source system is the RPMS SRF data entered at the point of care and
the national RPMS suicide database maintained by II-1S. The SRF was designed by clinical,
epidemiology, and informatics subject matter experts. The targets are determined by an analysis
of the previous year's utilization ratcs by each of the 12 IHS Areas.
